        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Audit Report

The Department's Cyber Security
Incident Management Program




DOE/IG-0787                           January 2008
                             Department sf Energy
                                 Washington, DC 20585

                                January 1 6 , 2008




FROM:
                         /%*
MEMORANDUM FOR THE, SECRETARY

                         Greg y H. riedman
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "The Department's Cyber
                         Security Incident Management Program''

BACKGROUND

The Department of Energy operates numerous interconnected computer networks and
systems to help accon~plishits strategic missions in the areas of energy, defense, science,
and the environment. These systems are frequently subjected to sophisticated cyber
attacks that could potentially affect the Department's ability to carry out its mission.
During Fiscal Year 2006, the Department experienced 132 incidents of sufficient severity
to require reporting to law enforcement, an increase of 22 percent over the prior year.
These statistics, troubling as they may be, are not unique to the Department; they are, in
fact, reflective of a trend in cyber attacks throughout the government.

The Federal Information Security Management Act of 2002 requires each agency to
implement procedures for detecting, reporting and responding to cyber security incidents,
including notifying and consulting with the Department of Homeland Security's Federal
Computer Incident Response Center, law enforcement agencies, and Inspectors General.
To meet this requirement and counter the threat posed by cyber attacks, the Department
has established incident reporting mechanisms and various cyber security incident
response and analysis capabilities to prevent, detect, respond, and recover from cyber
security incidents. Given the prevalence of cyber security attacks on Federal information
systems, we initiated an audit to determine if the Department had developed an integrated
and effective cyber security incident management program.

RESULTS OF AUDIT

Our review identified issues that could limit the efficiency and effectiveness of the
Department's program and could adversely impact investigations by law enforcement or
counterintelligence officials. In particular, we observed that:

        Program elements and facility contractors had established and operated as many
        as eight independent cyber security intrusion and analysis organizations whose
        missions and functions we found to be, at least partially, duplicative and not well
        coordinated. These organizations did not use a common incident reporting format
        and did not always ensure that essential attack-related information needed



                                @    Printed with soy inl: on recycled paper
       for investigative or trending purposes was reported or retained. Sites could also
       choose whether to participate in network monitoring activities perfonned by these
       organizations. Further, some sites selectively disabled network sensors or "opted-
       out" of network illonitoring activities. Even when facilities participated in
       monitoring activities, they did not always report network monitoring data -
       infornlatioil needed to develop a complex-wide pattern of network traffic and
       attack patterns; and,

       The Department had not adequately addressed these and related issues through
       policy changes, even though it had identified and acknowledged weaknesses in its
       cyber security incident management and response program. For example, its
       recently issued cyber security incident reporting guidance does not fully address
       reporting issues and fails to respond to coordination issues facing the various
       cyber intrusion and analysis organizations. Also, the guidance does not
       specifically require that incidents be reported to law enforcement or
       couilteriiltelligence officials.

In part, many of the issues we observed were attributable to the lack of a unified,
Department-wide cyber incident response strategy. As such, the Department may be
unable to promptly and completely respond to successful attacks; recognize and develop
response strategies for systematic attacks; and, in general, ensure that systems and the
critical, operational, and personally identifiable information they contain are adequately
protected. The failure to promptly and completely report serious incidents to law
enforcement and counterintelligence officials could also cornpromise the ability of those
organizations to preserve evidence and/or mount a successful investigation or response.

To address the risks associated with the increasing number and sophistication of cyber
attacks, the Department, to its credit, has taken a number of actions to enhance its cyber
security program. These have included strengthening intrusion detection across the
complex, improving its defense-in-depth approach to network and system protection, and
implementing other protective measures. To further enhance the effectiveness of its
existing protective measures and help improve cyber-related communication and
coordination, we made a number of recommendations that, if implemented, should help
the Department improve its ability to prepare for and respond to emerging threats.

MANAGEMENT REACTION

Management concurred with our findings and recommendations. Management stated that
improvements need to be made to develop a more coordinated incident management
capability. Where appropriate, we incorporated Management's suggestioils into the body
of the report and included a copy of the comments in Appendix 3.

Attachment

cc:   Deputy Secretary
      Under Secretary of Energy
      Under Secretary for Science
      Administrator, National Nuclear Security Administration
      Chief Information Officer
      Chief of Staff
      Chief Health, Safety and Sec~~rity
                                       Officer
REPORT ON THE DEPARTMENT'S CYBER SECURITY INCIDENT
MANAGEMENT PROGRAM


TABLE OF
CONTENTS


    Incident Manaqement Efforts

    Details of Finding ..........................................................................................................1

    Recommendatioils .........................................................................................................8

    Comments .....................................................................................................................9


    Appendices

    1. Objective, Scope, and Methodology ..................................................................... 1 1

    2. Prior Reports ........................................................................................................ 13

    3. Management Comments ........................................................................................ 16
CYBER SECURITY INCIDENT MANAGEMENT PROGRAM

Managing Cyber      The Department of Energy (Department) and the
Security Response   National Nuclear Security Administration (NNSA)
Capabilities        established and maintained a number of independent, at
                    !east partially duplicative, cyber security incident
                    management capabilities and have not con~pletedaction to
                    resolve previously identified coordination problems among
                    and between those organizations and progam elements.

                          Cyber Security Incident Handling Capabilities

                    In 1989, the Department established the Computer hcident
                    Advisory Capability (CIAC) at Lawrence Livermore
                    National Laboratory (Livennore) to address cyber security
                    incidents and provide threat analysis for the entire
                    Department. Yet, NNSA and various program elements
                    elected to establish their own separate, independent
                    computer incident analysis and response organizations with
                    similar capabilities. As currently chartered, CIAC -
                    managed by the Office of the Chief Information Officer
                    (OCIO) and funded at approximately $6.8 million in Fiscal
                    Year (FY) 2006 - provides response and advisory services
                    to the entire Department, colnprised of 69 organizations.

                    CIAC includes computer forensics and assistance in
                    investigating and preserving cyber evidence. CIAC also
                    maintains and analyzes an archive of cyber-related events,
                    warns Departmental elements of security flaws in software,
                    and disseminates patches and updates for vulnerable
                    systems. All Departmental elements, including NNSA, are
                    required to report persistent attempts or successful cyber
                    intrusions to CIAC, including monthly negative reporting
                    when no compromises or intrusions occur.

                    Despite CIAC's capabilities - and previous designations by
                    the Department as the organization responsible for
                    capturing and analyzing unauthorized system activity -
                    NNSA and other programs formed other independent, at
                    least partially duplicative, capabilities that continue to
                    operate. For example,

                           NNSA's Information Assurance Response Center
                           (IARC) provides cyber security incident prevention,
                           detection, analysis, and mitigation to various NNSA
                           sites - duplicating functions perfomled by CIAC.
                           IARC was originally established in June 2000 to
                           develop a security and network operations center



Page 1                                                    Details of Finding
                for NNSA's Enterprise Secure Network, a classified
                network currently under development. However,
                due to delays in implementing this classified
                network, IARC's role evolved into its current
                responsibilities. At the time of our review, IARC
                performed these services for nine hNSA sites and
                received $5 million in funding in FY 2006.

                The OCIO operates the Cyber-Forensics Laboratory
                (CFL) to provide classified computer forensic
                assistance to all Departinental offices. CFL also
                performs valuable secondary functions such as
                product testing and evaluation, security training,
                and data recovery. Sponsorship of this organization
                was transferred from the former Office of Security
                to the OCIO during 2004. The CIO maintained the
                contract for CFL services even though CIAC had
                been previously tasked with performing the same
                type of forensic services. CFL received $1.5
                million in FY 2006.

                The Cooperative Protection Program (CPP), a joint
                effort by the OCIO and the Ofice of Intelligence
                and Counterintelligence (INCN), funded at about
                $2.1 million in FY 2006, maintains external
                network sensors that detect and help deter hostile
                activity directed against the Department's
                information technology assets. IARC, however,
                duplicates certain CPP functions by deploying
                network sensors at some NNSA sites. IARC
                officials stated they deployed their own sensors
                because the CPP sensors did not provide all the
                information they needed. We noted however that
                IARC could have but did not take advantage of
                CPP's external network sensors. NNSA's three
                largest weapon laboratories also used CPP sensors
                instead of those deployed by IARC.

         In addition to these multi-site capabilities, a number of
         Department field organizations have developed their own
         site-specific cyber analysis capabilities, some of which not
         only target their activity to detect and respond to site-specific
         threats, but also provide services to other Department
         entities. For example, the Office of Science's Pacific
         Northwest National Laboratory has provided intrusion
         analysis support to various parts of the Department. Nuclear
         Energy's Idaho National Laboratory, Los Alan~osand Sandia


Page 2                                            Details of Finding
         also maintain their own extensive cyber analysis capabilities.
         While funding for these site-level capabilities is likely
         significant, site officials told us they were unable to provide
         individual costs because the operations are part of the site's
         overall cyber security budget and were not funded separately.

                          Coordination of Activities

         The Department has recog~izedcertain cyber security
         program weaknesses, specifically including probleins with
         coordination between the various independent incident
         response organizations. Project teams were established to
         study this issue and to propose potential solutions. In
         January 2005, for example, an internal study by the OCIO
         noted that ". . .growing interconnectivity among the DOE,
         including NIVSA sites, and recent cyber incident events
         have demonstrated the need for an integrated approach to
         management of cyber incidents across the entire
         Department."

         In November 2005, the Department's Cyber Security
         Project Team submitted proposals for ensuring successful
         identification and analysis of threat information and
         reengineering the Department's cyber security incident
         warning, prevention, detection, and response processes.
         This team, led by the Office of Cyber Security Evaluation,
         within the Office of Health, Safety and Security (HSS),
         concluded that ". . .cyber security incident management
         responsibilities and authorities must be clarified across the
         Department, and coordinated approaches must be
         established for responding to varying incident conditions."
         Consistent with these findings, the OCIO's February 2006
         plan for Revitalization of the Department of Energy Cyber
         Security Program, similarly noted that " . . .the Department's
         incident detection and response capabilities consist of
         separate, inadequately coordinated capabilities."

         Despite this recognition, the Department had yet to initiate
         action to resolve differences in approach or eliminate
         duplicative functions. Our review of initial action plans
         disclosed that officials had planned to address coordination
         issues in new, updated guidance on cyber incident response
         and reporting. However, recently issued guidance (known
         as CS-9, Incident Management Guidance) does not address
         coordination and communication issues. The guidance and
         its replacement draft policy, Cyber Security Technical and



Page 3                                           Details of Finding
         Managenlent Requirement docunleilt (known as TMR-9,
         It~cidentMalzagenzent), also does not address the issue of
         duplicative functionality across response organizations.

         In response to the task force report, management officials
         indicated that they planned to review the Department's
         cyber security incident handling processes to clarify
         responsibilities and authorities across the Department and
         to coordinate approaches for responding to varying incident
         conditions. As such, a plan to fund, develop, deploy, and
         transition to a structured, cohesive, and consistent process
         for performing incident warning, prevention, detection,
         response, and management was scheduled within 60 days
         after acceptance of the February 2006 Revitalization of the
         Departmelzt of Energy Cyber Security Progranz. However,
         a comprehensive plan has yet to be approved.

                      Need for Improved Coordination

         Our review disclosed coordination and communication
         problems among Departmental elements regarding incident
         response and analysis. For example,

                Program and response organizations were not
                required to adhere to a coordinated/con~mon
                approach for incident reporting. As a consequence,
                many incident reports reaching CIAC lacked
                essential elements for reporting to law enforcement
                and subsequent analysis for trending. A recent
                examination of the CL4C incident database revealed
                that certain information necessary for analyzing the
                nature or origin of various penetrations had not been
                provided by sites and other cyber incident response
                organizations. Even though many NNSA
                organizations used common, shared Departmental
                networks, CIAC officials told us they were often
                prohibited from contacting NNSA sites directly to
                obtain missing information and were required to
                refer all inquires to IARC.

                Sites were permitted to "opt-out" of the CPP
                network sensor initiative, thus preventing the
                Department from acquiring a complex-wide
                perspective of network traffic and attack patterns;

                Organizations were allowed to disable network
                sensors at any time, an action that could provide a
                                                                -     -


Page 4                                          Details of finding
                             window of opportunity for individuals attempting to
                             penetrate networks and systeills to avoid detection;
                             and,

                         a   Entities were not required to provide CPP network
                             monitoring data to CIAC, thus preventing it from
                             gathering a Department-wide perspective of
                             network defenses and potentiallactual
                             vulnerabilities.

                      As a result of a sophisticated attack on the Department's
                      systems, an informal network of cyber analysts across the
                      Department formed to develop response strategies. In
                      addition, the OCIO created a weekly threat sharing meeting
                      attended by cyber security representatives from senior
                      managenlent and counterintelligence. While these
                      developments are noteworthy and promising, formal
                      structured coordination processes and procedures, that
                      include both Headquarters and field sites, should be
                      established to enable the Department to respond quickly
                      and effectively to future sophisticated attacks.

Incident Management   Recent cancellation of the Department's detailed incident
Policy and Guidance   response directive and its replacement with a more general,
                      generic guidance could also adversely impact overall
                      incident management and response by law enforcement and
                      counterintelligence officials. On April 1 1, 2007, the
                      Department rescinded DOE M 205.1 - 1, its Incident
                      Prevention, Warning, and Response (IP WAR) Ma~zualand
                      replaced it with the less rigorous CS-9.

                      Based on our review of the CS-9 and its corresponding
                      draft policy document, TMR-9, we noted that the recently
                      issued guidance:

                         a   Does not establish a formal mechanism for
                             implementing a requirement established by the
                             Deputy Secretary to notify senior officials when an
                             event is significant enough to warrant action;

                         a   Lacks a structured process for disseminating
                             information regarding sophisticated and coordinated
                             cyber attacks;

                             Fails to establish a structured process for a
                             coordinated response to cyber attacks that impact
                             multiple program offices and sites;


Page 5                                                      Details of Finding
                Does not establish clearly defined purposes, roles,
                or responsibilities for CIAC - the organization
                previously designated in the IPWAR Manual as the
                Department's central point of contact for cyber
                incident management;

                Oinits the roles or coordination requirements for
                other existing capabilities such as the Cyber-
                Forensics Laboratory, the NNSA Infoinlation
                Assurance Response Center, the Computer
                Protection Program, and the various site-specific
                capabilities; and,

                No longer specifically requires organizations to
                report certain cyber security incidents to the Office
                of Inspector General (OIG), Technology Crimes
                Section; HSS; and/or INCN within established
                timefiames. The now cancelled IPWAR Manual
                more clearly defined the OCIO and CIAC's roles
                and responsibilities for the Department and
                established formal procedures for when and how to
                report specific events.

         In conducting our review, we noted that the change in
         policy guidance was not coordinated prior to its
         implementation through the Department's formal web-
         based Review and Comment System (RevCom). RevCom
         allows the entire DepartmentNNSA complex the
         opportunity to provide comments on proposed policy and
         guidance documents prior to the issuance of an official,
         final directive. As a consequence, organizations with a
         vested interest in TMR-9, such as TNCN, HSS, or OIG
         were not offered the opportunity to review and comment on
         the omissions or relaxation of previously established
         IPWAR Manual requirements. Given that the duplicative
         and uncoordinated incident reporting structure previously
         described evolved while the more restrictive and detailed
         policy was in force, adopting an approach with fewer rigors
         could result in additional cyber incident management
         problems.




Page 6                                          Details of Finding
Strategy for          Many of the issues ~e observed are attributable, at least in
Management of Cyber   part, to the lack of a unified, Department-wide cyber
Security Incidences   incident response strategy. While a number of the actions
                      were well-intentioned and taken with a view toward placing
                      primary responsibility for reporting and incident response
                      at the NNSA and program-level, they have had the
                      unintended effect of further diminishing the overall
                      effectiveness and efficiency of the Department's cyber
                      incident management capability. Lacking a unified
                      approach, and in respoilse to the increasing number of
                      cyber-related events affecting govenment computers and
                      systems, various entities independently developed their
                      own incident handling capabilities. The Department's
                      current approach is also not consistent with either the
                      Federal In formatioil Security Management Act (FI SMA) or
                      National Institute of Standards and Technology guidance
                      that require Agencies to develop a comprehensive plan for
                      a well-coordinated and integrated solution for capturing,
                      analyzing and disseminating aggregate cyber incident
                      information across the complex.
Information Systems   The Department's current reporting and cyber incident
And Networks Placed   management structure increases the risk that it will be
At Risk               unable to satisfy both internal and external response and
                      reporting requirements. In certain attack or breach
                      situations, response times are as little as 45 minutes, a
                      deadline that is unlikely to be achieved unless a
                      coordinated approach is adopted. In addition to ensuring
                      that the Department's senior management is promptly
                      notified and fully informed, the elimination of coordination
                      barriers could also help ensure that the Department is able
                      to satisfy Federal requirements to ". . .report all
                      unauthorized system activity (cyber security incidents)
                      quickly and accurately" and to certify annually that "both
                      the agency and each of its components have established
                      processes that ensure timely, accurate reporting" to the
                      Department of Homeland Security's United States
                      Computer Emergency Readiness Team (US-CERT) and,
                      where appropriate, to law enforcement or
                      counterintelligence authorities.

                      OIG Special Inquiv Report Relating to the Department of
                      Energy's Response to a Con~promiseofPersonrze1 Data
                      (OIG Case No. 1061G001, July 2006) highlights the




Page 7                                                       Details of Finding
                  Department's continuing challenge regarding
                  communicating, coordinating, and responding to cyber
                  incidents. LII that case, a hacker extracted the names and
                  social security nuinbers nf over 1,500 Federal and
                  contractor employees from a coinputer system at the NNSA
                  Service Center in Albuquerque, New Mexico. The
                  intrusion was finally discovered in September 2005, and
                  the Secretary and affected employees were not informed of
                  the compromise of privacy data until June 2006,
                  approximately 10 months later. The report noted that there
                  was an unacceptable failure of communicatioil throughout
                  all levels of the Department and stated that the
                  Department's handling of this matter was largely
                  dysfunctional. It identified the cause as (1) significant
                  confusion of key decision makers regarding lines of
                  authority, responsibility, and accountability; (2) poor
                  internal communications, including a lack of coordination
                  and a failure to share essential information among key
                  officials; and, (3) insufficient follow-up on critical issues
                  and decisions.

                  The need to ensure that cyber incidents are handled
                  promptly and properly is made more urgent by the Office
                  of Management and Budget's (OMB) May 22,2007,
                  memorandum M-07- 16, Safegziardirzg Against and
                  Responding to the Breach of person all^^ Identzfiable
                  Information. In response to a number of recent
                  unauthorized disclosures of personally identifiable
                  information throughout the Federal government, OMB
                  implemented a new incident handling and reporting
                  requirement that each agency develop and implement a
                  policy for notifying US-CERT within one hour of the
                  breach and also provide timely notification to affected
                  individuals. It may be difficult for the Department to
                  respond to this new requirement effectively unless it
                  ensures that all incidents are properly captured, the
                  response is properly coordinated, and that one organization
                  within the agency has ultimate responsibility for receiving
                  reports and handling required notifications.


RECOMMENDATIONS   To more effectively prepare for and address emerging
                  cyber security threats and enhance the security of the
                  Department's information systems, we recommend the
                  Department and the NNSA Chief Information Officers, in
                  coordination with the Administrator, National Nuclear
                  Security Administration; Under Secretary of Energy; the


Page 8                                                  Recommendations
             Under Secretary for Science; Chief, HSS; and the Director,
             INCN should:

                    1. Develop and implement, through policy and
                       guidance, an enterprise-wide cyber security
                       incident mailagen~eiltstrategy that:

                         a) Establishes clearly defined lines of
                            authority, responsibility, and
                            accountability among the various
                            capabilities; promotes a coordinated
                            approach for preventing, detecting,
                            responding to, and recovering from cyber
                            security events; and enforces prompt and
                            complete notification of reportable
                            incidents to include relevant law
                            enforcement and counterintelligellce
                            officials;

                         b) Requires all Departmental elements,
                            including NNSA, to contribute to a unified
                            and consistent cyber security incident
                            management program that ensures timely
                            and appropriate response activities, and
                            continuity of operations; and,

                          c) Leverages the use of existing capabilities
                             and resources and eliminates unnecessary
                             duplication, where appropriate.

                   2. Apply a consistent and coordinated approach for
                      the development of revisions to existing policies
                      that affords all interested Departmental elements
                      (including program, staff and support offices,
                      and field elements) the opportunity to comment
                      prior to issuance of official policy or
                      requirements.

                   3. Develop a mechanism to periodically test and
                      evaluate the Department's overall performance in
                      detecting, analyzing, responding, and recoveriilg
                      from multi-site cyber security events.


MANAGEMENT   Management agreed with the information contained in the
REACTION     report and concurred with each of the specific
             recommendations. The Department's OCIO provided

Page 9                                                    Comments
           comments that corrective actions would be taken on
           specific findings and that it would contiilue to work to
           improve its cyber security incident management
           capabilities. Specifically, the OCIO is currently drafting a
           new incident mailagement approach called the integrated
           Enterprise Incident Capability (EIC). The intent is to
           restructure the Department and NNSA's cyber incident
           detection, response, reporting, and management capabilities
           to enhance the ability to detect, prevent, respond, and
           recover from computer security events. The OClO plans to
           conlplete the written strategy for the EIC, including DOE-
           wide review, no later than March 3 1, 2008. Appropriate
           policies and implementation plans, which will leverage
           existing DOE and NNSA processes to the maximum extent
           practical, are scheduled for release shortly thereafter.

           The Under Secretary for Science provided comments on the
           report that were incorporated into the response provided by
           the CIO. Electronic comments provided by NNSA
           indicated that it concurred with the recommendations.


AUDITOR    Management's comments are generally responsive to our
COMMENTS   recommendations.




Page 10                                                  Comments
Appendix I

OBJECTIVE     The objective of this audit was to determine whether the
              Department of Energy (Department) developed and
              iinplenlented an integrated and effective Cyber Security
              Incidel~tManagement Capability.


SCOPE         We conducted the audit from November 2005 to August
              2007 at Headquarters offices in Washington, D.C., and
              Germantown, MD; Lawrence Livennore National
              Laboratory, in Livermore, CA; Lawrence Berkeley
              National Laboratory in Berkeley, CA; Pacific Northwest
              National Laboratory in Richland, WA; and the National
              Nuclear Security Administration's Infomlation Assurance
              Response Center facility in Las Vegas, NV. The scope of
              the audit covered the Department's cyber incident analysis
              capabilities.

METHODOLOGY   To accomplish our objective, we:

                     Reviewed applicable Federal laws and
                     Departmental directives;

                     Reviewed standards and guidance issued by the
                     National Institute of Standards and Technology;

                     Performed site visits and interviewed pertinent
                     personnel involved in cyber analysis activities;

                     Evaluated activities and capabilities performed at
                     the program and site levels; and,

                     Determined funding information related to cyber
                     analysis capabilities.

              The audit was conducted in accordance with generally
              accepted Government auditing standards for performance
              audits and included tests of intenlal controls and
              compliance with laws and regulations to the extent
              necessary to satisfy the audit objective. We assessed
              compliance with the Govenlmerzt Perfornzance arzd Results
              Act of 1993 related to the Department's cyber analysis
              capabilities and found that the Department had established
              performance measures associated with strengthening its
              comprehensive cyber security program. Because our
              review was limited, it would not necessarily have disclosed
              all internal control deficiencies that may have existed at the


Page 11                           Objective, Scope, and Methodology
Appendix I (continued)

                    time of our audit. We did not conduct a reliability
                    assessn~eiltof computer-processed data because we did not
                    rely on computer-processed infom~ationto achieve our
                    audit objective.




Page 12                               Objective, Scope, and Methodology
Appendix 2

                                    APPENDIX 2

                                 PRIOR REPORTS

Office of Inspector General Reports

      Evalltatiorl Report 011 the Departr7zerzt's Urzclassrjied Cyber Security Program -
      2007 (DOEIIG-0776, September 2007). As reported in previous years, risks to
      the Department of Energy's (Department) information and systems remains higher
      than necessary. The threat of comproinise continues to grow as the Department
      introduces additional systems and network interconnections, and permits
      emerging techilologies. In addition, external network scanning and probing
      activities being conducted by nefarious individuals are escalating. As a result, the
      number of cyber security incidents reported to the Computer Incident Advisory
      Capability (CIAC), including infonnation system and data con~promisesand
      introduction of malicious code, is at its highest level in three years. Emphasis on
      protecting personal infom~ationrequires effective security controls over sensitive
      infom~ationmaintained on agency systems.

      Security over Personally Identzfiable Infornzation (DOEIIG-0771, July 2007).
      The Department had not fully implemented all protective measures for
      information systems that contain personally identifiable infomlation (PII)
      recommended by the Office of Management and Budget and required by the
      National Institute of Standards and Technology. In particular, seven of eleven
      field sites reviewed (3 Federal, 8 contractor) had not identified information
      systems containing PIT, or fully evaluated the risks of exposing PI1 stored in such
      systems. Controls for securing remote access to site-level systems containing
      personal information had not been fully implemented; and five sites had not
      identified mobile computing devices containing PI1 or ensured that this
      information was encrypted as required.

      Evaluation Report on the Departmerzt's Unclasszjied Cyber Security Progranz -
      2006 (DOEIIG-0738, September 2006). While positive actions have been taken,
      deficiencies continued to leave critical systems exposed to an increased risk of
      compromise. Specifically, the Department had not completed a complex-wide
      inventory of major information systems, certification and accreditation packages
      lacked essential elements, contingency planning was incomplete, and access
      controls and configuration management were inadequate. Continuing cyber
      security weaknesses occurred, at least in part, because program and field elements
      did not always implement or properly execute existing Departmental and Federal
      cyber security requirements. In a number of instances, cyber security weaknesses
      that were identified were not addressed in a timely manner or tracked to
      resolution. As a consequence, the Department's information systems and
      networks and the data they contain remain at risk of compromise.




Page 13                                                                Prior Reports
Appendix 2 (continued)

     Special 111q1liq;Report Relating to the Departnierzt o f Ener,q)sls Response to a
     Conzpro~?ziseof Perso~inelData (OIG Case No. 106IG001, July 2006). A hacker
     extracted a file containing the names and social security ilun~bersof 1,502
     National Nuclear Security Administration (NNSA) Federal and contractor
     employees from a coinputer system at the NNSA Service Center in Albuquerque,
     New Mexico. Neither the employees affected nor appropriate officials were
     properly notified until about ten months after the successful intrusion had been
     detected. In addition, there was a lengthy delay in the Department's completion of
     an impact assessnlent on the intrusion. The Department's handling of this matter
     was largely dysfunctioilal and the operational and procedural breakdowns were
     caused by questionable managerial judgments; significant confusion by key
     decision makers as to lines of authority, responsibility, and accountability; poor
     internal communications, including a lack of coordination and a failure to share
     essential information among key officials; and, insufficient follow-up on critically
     important issues and decisions. The bifurcated organizational structure of NNSA
     within the Department conlplicated the situation.

     The Departrizent's UnclasszJied Cyber Security Program - 2005, (DOEIIG-0700,
     September 2005). Significant improvements were still needed in the areas of
     password management, configuration management, and restriction of network
     services. In addition, sites failed to report computer intrusions or other cyber
     security events to law enforcement officials, as required. Departmental elements
     notified the Office of Investigations of only 60 of the 108 qualifying cyber
     security events that occurred in Fiscal Year (FY) 2005, jeopardizing the ability to
     promptly investigate potential criminal cyber security activity. This problem
     exposed the Department's critical systems to an increased risk of con~promiseand
     occurred, at least in part, because program and field elements did not always
     implement or properly execute standing Departmental and Federal cyber security
     requirements.

     Audit Report or1 Itnplementatio~zof Indications, Warning, Arzalysis and Reporting
     Capability (DOEIIG-063 1, December 2003). Fifty-four percent of the
     Department's organizations were not reporting cyber security attacks, probes, or
     con~pron~ises to the (CIAC) as required by Departmental directives. Even when
     organizations reported successful intrusions to CIAC, they were not always
     reported to oversight officials or law enforcement for investigation. The
     Department had not developed and implemented a program to monitor security
     incident reporting and had not established performance goals to measure the
     success of policy implementation. Untimely and inaccurate incident reporting
     impeded the Department's ability to adequately protect information resources,
     increased inforn~ationsystems costs, and affected mission accomplishment.

     Virus Protection Strategies and Cyber Security Incident Reporting (DOEIIG-
     0500, April 2001). The Department's virus protection strategies and cyber
     security incident reporting methods did not adequately protect systems from
     damage by viruses and did not provide sufficient infornlation needed to manage

Page 14                                                               Prior Reports
Appendix 2 (continued)

      its network intrusion threat. Further, specific perfoinlance goals related to virus
      protectioil and cyber security event response had not been developed as required
      by the Gover-lzment Pe~for.nrrt~~ceand Results Act of 1993. While the Department
      had developed and implemented an incident response capability, inconsistent
      reporting by over 50 percent of sites and program elelnents hampered critical
      efforts to analyze threats and formulate countermeasures. Inconlplete reporting
      left intenlal oversight organizations unprepared to effectively respond and
      potentially jeopardized systems of agencies, since accurate threat data could not
      be provided to national-level organizations such as the Federal Computer Illcident
      Response Capability and the National Infrastructure Protection Center. These
      problems occurred because the Department had not developed and implemented
      an effective enterprise-wide protection strategy.

Government Accountability Office (GAO) Reports

      I~i$or~?iation
                   Security: Persistent Weak~iessesHighlight Need for Further
      Impro~~enient  (GAO-07-751T, April 19, 2007). GAO noted that organizations can
      reduce the risks associated with intrusions and misuse if they take steps to detect
      and respond to these events before significant damage occurs, analyze the causes
      and effects of the events, and apply the lessons learned. Federal agencies are
      required to report incidents to the Federal information security incident center,
      (Computer Emergency Readiness Teanl), and reported a record number of
      incidents in FY 2006. However, there is inconsistent reporting at various levels
      throughout the government. If agencies do not properly capture and analyze
      security intrusions, they risk losing valuable infornlation needed to prevent future
      exploits and understand the nature and cost of security threats.




Page 15                                                                Prior Reports
Appendix 3




                                           Department of Energy
                                                \':ash~nqron   OC 20585




          \11-\~lOK.\\UC:M FOR RICK[?\. R. WASS
                               .-\SSISTASI- IVSt'E(~T0KC J E K I ~ K : ~FOR       ~.
                                  I ' X L I K O S l l l i h T . SC'lEliC'E A S D CORPORATE ;2L:DITS


                                      RI(:HAI<D h 1 0 0

                                      OFFICE OF THE U N D E R SECREI'.MY OF E S E R G Y

          S[!BJEC'T:                  Cornrncn~son Drafi Report on "The Departmcnr's Cybcr
                                      Security Incidcnt >tanagernenr Capability"

          Ilic Orlice ol'lhc Cinder Seirrt;lr) oTF.;.ncry!; apprcci;~lesthe o p p o ~ ~ u nto  ~ tre\.icrr
                                                                                                   y       the
          (11G dlxfi repolt or1 "'1-he Depannlent's CIybcr Sccurity Incido?l 3la1lagcmerl1
          ('ninl>iIi~y."\ \ c ai.ccl)t he principle that thc Ilepanment should coordiilatc its cyher
          \ ~ C U : I I ) . itlc~denlmanagernem capab~lir)and \ r e rvi'll work rloscly with the C10 lo
          iiddrcss rhc rzcorn~ncnda~ions       presented




Page 16                                                                              Management comments
Appendix 3 (continued)




                                         Department of Energy
                                              Washington. DC 20585
                                               December 19, 2007


            MEMORANDUM FOR RICKEY R. HASS
                           ASSISTANT INSPECTOR GENERAL FOR
                           ENVIRONMENT, SCIENCE AND CORPORATE
                           AUDITS

            FROM:                      THOMAS N . PYKE, JR.


            SUBJECT:                   Draft Report on The Department 's Cyher Securily
                                       lncitlent Munagement Capobilily

            Thank you for the opportunity to coniment on this draft report. The information
            PI-ovided is consistent with our own observations about improvements that need to
            be ~ n a d eto dcvelop a more coordinatcd incidcnt management capability. The
            Office o f the Chief Information Officer (OCIO) generally concurs with the
            recornn~endationsas indicated below:

            Recommendation 1 : Develop and brrplernent, throrrgh policy untlgrti~lunc~e,
                                                                                      utr
            errterprise-wirlecyber security i~rciclenrtnanagemmt strategy that:

                    a ) Estuhlislres clecrrly clefined lines ofarithority, responsibility. trnd
                        uccou~~mhility  amotlg the various capdbilities: promotes u coordi~rutetl
                        approtrchfor preventit~g,defecting, responding to, and recoveritrg
                       fronr cyber security events; arrtl etr/orces prompt und cotnplete
                        tro~rjicationof reporfable inci~lentsto itrclude relei~unlIuw
                        etr/orce~~le~lt
                                      atid counterintelligence ofliciuls;

                   b) Requires all Departtnental elen~ents,including NNSA, ro coritrihrtte to
                      a unified and consislent cyber secrtrity itrcident mcrtrugenzent progrun~
                      tlrat ensures timely and appropriale response activities. ~ n tcontinurtv
                                                                                       l
                      of operutions; u11c1

                    c) Leverages rhe llse ofexisting copcrbilities rrnd resortrces untl elit~rinufes
                       u~r~recessuq~
                                   duplicarion, where appropriate.

            Concur. The OCIO is currently drafting a new incident ~nanagementapproach
            called the integratcd Enterprise Incident Capability (EIC). The EIC intciids 10
            rcstructurc the Department of Energy (DOE) and National Nuclear Security
            Administration (NNSA) cyber incident detection, response, reporting, and
            ~iianageme~it  to enhance the ability to detect, prevent, respond, and recover fiam
            computer security events. It aims to assist the Department in identifying potentla1
            risks as far in advancc of a potential incident as is possiblc and integrating thc
            identified risks with post-event response and recovery when necessary. dnother




Page 17                                                                  Management Comments
Appe~idix3 (continued)




           objeclive is to identify the vulnerabilities within the DOE compt~li~ig        c~ilcrpl-isc
           so that they can be mitigated or minimized before lhcy are exploited.
           i~nplementingthe EIC provides DOE with the capability to consolidate ant1
           correlate security event information from each element o f thc Dcpartrnen~.l'his
           capab~lityallows for the effcctive management of information during the critical
           niolnents o f ~ n ~ t i a t i nincident
                                           g       response and providcs a focal point for
           management of cyber Incidents in the Department.

           The OClO intends to cornpletc its written EIC strategy, including DOE-wide
           review. no laler than March 31, 2008. Appropriale policies and imple~nentation
           plans, which will leverage existing DOE and NNSA processes to the maximum
           exlent practical, will follow shortly thereafter.

           Reco~ii~nendation   2: Apply a corrsisre~l~und coortlirrared rrpprouchfor rhe
           rle~~clopr~ler~l
                          of~woposedo r revrsiorr 10 exisringpolicres rhar qflords trll rrlrere~reil
           Depur~ri~et~rtrlelcntrrlrs (irrcludir~gprogrr~m,srrrjlundsupporr ofltes, rrndficltl
           ~,lerrlcnrs)rhe opporrurri~v10 rornnlenr prior 10 issuurlce of ofirrtrlpolrrv or
           r~cyrrrrenrerlls.

           Concur. The Department is committed to employing the DOE Directives process
           lo issue formal, DOE-wide minimum standards for cyber security, including
           standards that govern incident handling. This process will ensure a full
           opportunily for comlnent prior to issuance of policy.

           Kecomlnendation 3: Develop u mechtrnisnl ~opcriodicrrllyresr rrntl c,v[rlrclr~c,rhe
           Deptrr~r~renri overull performur~cein derecring, urrulyzing. respor~~lrrlg.
                                                                                    or
           rer.oi~cr.ingfronlnrrrl~i-sirecyher secirr-ir)~ei~errrs.

           Concur. The Department's cyber security incident response capabilities are
           periodically tested and evaluated through several planned, independent activiticr.
           The Deparlment participates in a biennial world-wide cyber incidenl exercisc
           called Cyber Storni, sponsored by the Department of Homeland Security. Cyber
           Storm is intended to act as a catalyst for assessing communications, coordination,
           and partnerships across the public and private sectors in the event of a cyber
           artack. Cyber Storm scenarios are simulations using fictitious technical
           vul~ierabilitiesand threats. For the upcoming Cyber Storm I1 exercise. two large
           DOE laboratories have volunteered to participate and will be able to assess thcir
           sitcs' coni~nunicationsand coordination efforts within the Department. The
           Department also undergoes annual penetration testing (Red Team) by a highly
           skilled team from an external agency, which tests DOE'S ability to detect ant1
           respond to the mock attacks.

           For additional information, please contact Carol Williams, Deputy Associate C'IO
           for Cybcr Security ar (202) 586-6378.




Page 18                                                                          Management Comments
                                                             IG Report No. DOEI1G-0787

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our custonlers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this fori11, you may suggest improvenlents to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background inforn~ationabout the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and reconlinendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken 011 the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this f o m ~you
                                    , may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG- 1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations



If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.enerey.pov

  Your comments would be appreciated and can be provided on the Custon~erResponse Form.
